<html>
<title> - DOD COUNTERNARCOTICS: WHAT IS CONGRESS GETTING FOR ITS MONEY?</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





     DOD COUNTERNARCOTICS: WHAT IS CONGRESS GETTING FOR ITS MONEY?

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 21, 2004

                               __________

                           Serial No. 108-208

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
96-314                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          ------ ------
PATRICK J. TIBERI, Ohio                          ------
KATHERINE HARRIS, Florida            BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
NATHAN DEAL, Georgia                 ELIJAH E. CUMMINGS, Maryland
JOHN M. McHUGH, New York             DANNY K. DAVIS, Illinois
JOHN L. MICA, Florida                WM. LACY CLAY, Missouri
DOUG OSE, California                 LINDA T. SANCHEZ, California
JO ANN DAVIS, Virginia               C.A. ``DUTCH'' RUPPERSBERGER, 
JOHN R. CARTER, Texas                    Maryland
MARSHA BLACKBURN, Tennessee          ELEANOR HOLMES NORTON, District of 
PATRICK J. TIBERI, Ohio                  Columbia
                                     ------ ------

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     J. Marc Wheat, Staff Director
        Nicholas Coleman, Professional Staff Member and Counsel
                     Tony Haywood, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 21, 2004...................................     1
Statement of:
    O'Connell, Tom, Assistant Secretary, Department of Defense, 
      Special Operations and Low Intensity Conflict; Rear Admiral 
      David Kunkel, U.S. Pacific Command; and Brigadier General 
      Benjamin Mixon, U.S. Southern Command......................    14
Letters, statements, etc., submitted for the record by:
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    11
    Kunkel, Rear Admiral David, U.S. Pacific Command, prepared 
      statement of...............................................    31
    Mixon, Brigadier General Benjamin, U.S. Southern Command, 
      prepared statement of......................................    37
    O'Connell, Tom, Assistant Secretary, Department of Defense, 
      Special Operations and Low Intensity Conflict, prepared 
      statement of...............................................    16
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana:
        Prepared statement of....................................     4
        Prepared statement of General Sattler....................    55

 
     DOD COUNTERNARCOTICS: WHAT IS CONGRESS GETTING FOR ITS MONEY?

                              ----------                              


                       WEDNESDAY, APRIL 21, 2004

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:04 a.m., in 
room 2154, Rayburn House Office Building, Hon. Mark E. Souder 
(chairman of the subcommittee) presiding.
    Present: Representatives Souder, Cummings, and Norton.
    Staff present: J. Marc Wheat, staff director and chief 
counsel; Nicholas Coleman, professional staff member and 
counsel; John Stanton and David Thomasson, congressional 
fellows; Malia Holst, clerk; Tony Haywood, minority counsel; 
and Cecelia Morton, minority office manager.
    Mr. Souder. The subcommittee hearing will come to order.
    Good morning. Because of the consistent jurisdictional 
focus of this subcommittee on the President's National Drug 
Control Strategy, we pay very close attention to demand 
reduction, treatment, and drug supply and interdiction 
initiatives. Our oversight activities continually evaluate 
departmental authorizations, appropriations, and the efficiency 
and effectiveness of departmental efforts. The President's 
budget request, now before Congress, asks for approximately 
$12.6 billion for the Strategy in 2005. The Department of 
Defense is to be appropriated almost 15 percent of that sum.
    The most compelling reason for my tenacity in this regard 
is the loss of life due to drugs in my district and all over 
this great Nation. This year, more than 21,000 Americans died 
from drug-related causes. We have never lost this many 
Americans annually to a single military or terrorist campaign. 
This staggering statistic is significant when placed in 
perspective: we have lost in excess of 600 brave Americans in 
Iraq since Operation Enduring Freedom began, which is about 2.9 
percent of those lost to drugs over the same period of time. We 
have lost more Americans to drugs than were killed in any 
single terrorist act to date. It is vitally important that we 
maintain vigorous efforts to control the sources of supply for 
narcotics and to interdict them before reaching the United 
States.
    The Department of Defense has been appropriately authorized 
to conduct counternarcotics missions and was designated the 
lead department for many counternarcotics command, control, 
detection, monitoring, and training responsibilities in the 
1989 DOD authorization bill, among other authorities. The 
Department has been appropriately funded in fiscal year 2003 
with a final budget authority for DOD narcotics activities of 
$905.9 million. Fiscal year 2004 saw an increase in the 
narcotics budget to $908.6 million but the fiscal year 2005 
budget request is $852.7 million. In addition, the Department 
requested and received $73 million in supplemental funds for 
counternarcotics activities in the U.S. Central Command area of 
responsibility. It remains unclear to me how that appropriation 
has reduced the growth, processing, transshipment, and 
availability or street price of drugs from Central Asia.
    A significant problem is the allocation of national 
resources to counternarcotics missions. Many of our most 
significant interdiction assets are operated by the Department 
of Defense. The subcommittee staff received briefings at the 
Joint Interagency Task Force South in Key West and at the U.S. 
Southern Command that suggest that the redirection of national 
resources away from drug control missions in the SOUTHCOM area 
of responsibility to combat missions in the CENTCOM area of 
responsibility have had dire negative impacts on drug 
interdiction in the Western Hemisphere. Some detection and 
interception programs have only a minuscule proportion of the 
amount of resources that Government experts have deemed 
necessary for an adequate detection and interdiction program. 
This allocation of resources must be addressed vigorously and 
quickly by the Department of Defense.
    Our witnesses today have some of the significant 
responsibilities for operational matters relating to narcotics 
supply reduction and interdiction, and I appreciate very much 
the opportunity to have them here to survey the status, 
effectiveness, and spending priorities of these critical 
programs. For example, many of these responsibilities are 
carried out in the U.S. Southern Command area of responsibility 
and specifically in the Andean Region. For several years, the 
U.S. Southern Command personnel have been training Colombian 
military pilots and the Counternarcotics Brigade. The expanded 
authorities in Colombia allow personnel and equipment to be 
employed against both narcotics and terrorist threats. This 
year, the Department has requested an increase in the personnel 
limitation in Colombia, to facilitate greater training 
opportunities, among other things. It is clear that we are 
seeing real and tangible successes in Colombia, and I very much 
appreciate the Command's efforts to support the 
counternarcotics efforts of President Uribe and Vice President 
Santos, with whom I have had the opportunity to spend a 
significant amount of time. The attorney general of the United 
States has indicted members of both the FARC and the AUC for 
using drug proceeds to support their terrorism.
    I want to add one thing we learned just yesterday morning 
in Detroit, as we held a hearing on meth. At one point two big 
busts in Detroit were 40 percent of the meth precursors in the 
United States being shipped to California for the super labs, 
but the feeling of our Federal agencies is that the meth 
precursor chemicals, trafficking has shifted--not that the 
production has changed from Belgium and the Netherlands--but it 
has shifted to the south and to the west, coming from Asia and 
back up through the south. So when we effectively try to do 
homeland security at the borders, looking more closely for 
other things, and as we have transferred agents up to the 
north, nearly a 50 percent increase in the Department of 
Homeland Security to the north border and those big crossings, 
we have another impact on counternarcotics, which puts more 
pressure on the two commands we have here today if it is coming 
through the Asian side or up through the southern side, and now 
not down through Canada. We are not absolutely convinced of 
that trend, but that is what we heard from the major Federal 
agencies yesterday in Detroit.
    We will consider the Department's response to rapidly 
emerging new threats such as the connection between terrorist 
and drug trafficking organizations. The resumption of large-
scale heroin production in Afghanistan breeds instability and 
directly funds terrorist groups. The President has announced to 
the world that terrorists and sponsoring nations are our 
enemies. What efforts are underway to destroy the funding 
source of these enemies? The eradication of opium poppy, the 
interdiction of precursor chemicals traffickers, and the 
destruction of the stockpiled drugs and processing facilitates 
in Afghanistan directly carry out the intent of the Commander 
in Chief's National Drug Control Strategy.
    Today we will try to determine more precisely what has been 
the focus of effort and the effect of the Department's 
counternarcotics program worldwide and what steps can be taken 
to ensure the adequacy of interdiction resources, and determine 
whether resources will ever return to previous levels. Clearly, 
our plate this morning is very full, and I welcome our 
witnesses. From the Department of Defense we have Assistant 
Secretary of Defense for Special Operations and Low Intensity 
Conflict, Mr. Thomas O'Connell, who also recently testified 
before the subcommittee on the Andean Counterdrug Initiative, 
and we welcome you back. The second panel, actually, we have 
combined you into one panel and appreciate Mr. O'Connell 
accommodating that. We have here representing the Combatant 
Commands, where most of our supply reduction is authorized and 
appropriated. Brigadier General Benjamin Mixon will speak for 
the U.S. Southern Command and Rear Admiral David Kunkel will 
speak for the U.S. Pacific Command. Unfortunately, our invited 
witnesses from the U.S. Central Command, which would include 
Afghanistan, was not available to testify, so we look forward 
to receiving the testimony separately in the future.
    Certainly there is no lack of important issues for 
discussion, and I expect today's hearing to cover a wide range 
of pressing questions. We welcome all of you and I look forward 
to discussion.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T6314.001
    
    [GRAPHIC] [TIFF OMITTED] T6314.002
    
    [GRAPHIC] [TIFF OMITTED] T6314.003
    
    [GRAPHIC] [TIFF OMITTED] T6314.004
    
    [GRAPHIC] [TIFF OMITTED] T6314.005
    
    Mr. Souder. I now yield to our ranking member, Mr. 
Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    In both the past and the current fiscal year the Department 
of Defense received more than $900 million for counter and drug 
activities that support the goals of the National Drug Control 
Strategy. Roughly half of this money supports international 
interdiction efforts, mainly focused on stopping the flow of 
cocaine and heroin from the Andean Region and Mexico into the 
United States.
    Another important geographic area of focus is Afghanistan, 
the world's leading producer of heroin and the primary source 
of heroin destined for Europe. In both the Andean Region and 
Afghanistan, proceeds from drug cultivation, production and 
trafficking have been linked to terrorists, insurgent and 
criminal activities that aim to undermine efforts to achieve 
and sustain democracy and the rule of law abroad, and to harm 
American civilians at home.
    Imported legal drugs destroy thousands of lives each year 
and destroy communities throughout these United States. The 
attacks on September 11 brought home the fact that foreign drug 
proceeds helped to advance the murderous objectives of 
terrorist organizations like al Qaeda. DOD counterdrug programs 
provide vital support for U.S. counterdrug and counternarco-
terrorism activities in the areas of interdiction, 
intelligence, and detection and monitoring of drug smuggling 
routes and transit zones, often working in conjunction with 
Federal law enforcement agencies and allied militaries through 
task forces like the Joint Interagency Agency West.
    DOD also provides important support to domestic drug 
control efforts such as through its internal demand reduction 
efforts and by providing training and other support to State 
and local law enforcement through the National Guard. Both 
domestically and internationally, the drug trade threatens 
stability, security, and the rule of law. And in both contexts, 
the post-September 11 focus on terror poses challenges that 
affect the way Federal dollars and resources are allocated to 
fight the war on terror and the war on drugs.
    In Afghanistan, where opium production has skyrocketed 
since American forces removed the Taliban from power, the 
United Nations Office on Drugs and Crimes has stressed that the 
war on terror and the war on drugs are in effect the same war, 
that the drug trade is the primary threat to security and 
stability in Afghanistan. If the Afghan drug trade is not 
attacked aggressively, UNODC has warned that Afghanistan could 
evolve again into a failed state, controlled this time by drug 
cartels and narcoterrorist organizations. Such an outcome would 
be disastrous not only for Afghanistan and its neighbors, but 
for the United States and our allies who are in the cross hairs 
of the terrorist organizations that would benefit from a 
lawless Afghanistan.
    A similar situation exists in Colombia, where we have in 
effect collapsed the distinction between terrorist and drug 
organizations because of the interdependency that exists 
between the drug trade and the terrorists. A key distinction, 
however, is that as deeply as we have become involved in 
supporting Colombia's fight against narcoterrorism, American 
troops in Afghanistan are on the front lines, and this is 
unequivocally our war.
    Mr. Chairman, the U.S. military faces a difficult challenge 
in managing its overlapping mandates to fight war on terror and 
the war on drugs on the same geographic fronts. The witnesses 
before us today are charged with managing that important 
challenge. I look forward to hearing their testimony concerning 
the role of the Department of Defense on fighting the war on 
drugs, and I am interested in hearing their views on how the 
military can or should adapt to fight the war on drugs and the 
war on terror in a more synergistic fashion in light of the 
clear linkages that have been established between the two.
    Finally, Mr. Chairman, let me express my gratitude to the 
men and women in uniform who are charged with carrying out the 
military's mandates to protect our Nation from the twin threats 
of drugs and terrorism. We are deeply indebted to them for 
their courageous service to our Nation, and we thank them.
    Thank you for holding this hearing, and I look forward to 
the testimony.
    With that, Mr. Chairman, I yield back.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T6314.006

[GRAPHIC] [TIFF OMITTED] T6314.007

    Mr. Souder. Thank you, Mr. Cummings.
    Before we move forward, I want to take a point of personal 
privilege and salute an important member of my staff, John 
Stanton. John came to our staff in December 2002 as a 
congressional fellow from what was then the U.S. Customs 
Service. It is now the U.S. Immigrations and Customs 
Enforcement [ICE] Bureau of the Department of Homeland 
Security. As our staff expert on narcotics interdiction and 
related issues, John has provided us with excellent analysis 
and a wealth of experience. His assistance in setting up our 
subcommittee's hearings and briefings, his depth of knowledge 
of source zone issues in Colombia, Central Asia, and other 
regions, and perhaps, most important, his kindness and 
generosity to all of us who work with him have been invaluable.
    John's career of public service began in 1979 with the U.S. 
Marine Corps, with whom he served 6 years. In 1989, he joined 
U.S. Army Special Forces and attained the rank of Captain. A 
graduate of the Emory-Riddle Aeronautical University, John flew 
with Eastern Airlines, then joined the U.S. Customs Service as 
a law enforcement officer and pilot in 1991. He has flown 
missions in nearly every type of aircraft owned by U.S. law 
enforcement and in such diverse locations as El Paso, TX; 
Tucson, AZ; Puerto Rico, Panama, Mexico, Colombia, and Peru.
    Prior to joining our subcommittee staff, John was assigned 
to the operational staff of U.S. Customs headquarters. During 
his time there, John was placed in charge of air security for 
the 2002 Olympics in Salt Lake City, UT, coordinating between 
headquarters and agents in the field. Earlier this month, John 
was recalled for duty as a member of the U.S. Army Reserve and 
will be reporting to base next week. He is scheduled to serve 
in Iraq as part of our Nation's ongoing efforts to establish 
peace, justice, and democracy in that troubled region of the 
world.
    John, it has been an honor to work with you. Please accept 
our heartfelt thanks for your service to this subcommittee and 
our best wishes for your continued success and our prayers for 
your safe return home.
    I ask unanimous consent that all Members have 5 legislative 
days to submit written statements and questions for the hearing 
record, and that any answers to written questions provided by 
the witnesses also be included in the record. Without 
objection, it is so ordered.
    I also ask unanimous consent that all exhibits, documents, 
and other materials referred to by Members and witnesses may be 
included in the hearing record, and that all Members be 
permitted to revise and extend their remarks. Without 
objection, so ordered.
    As you all know, it is our standard practice to ask 
witnesses to testify under oath. Would you please rise so I can 
administer the oath?
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
answered in the affirmative.
    We begin today with Assistant Secretary of Defense Thomas 
O'Connell. Welcome back to our subcommittee. We very much were 
thrilled that your position was filled. We are glad you are at 
the Department of Defense working with these issues and glad 
you could come again to talk today. You are recognized for 5 
minutes.

STATEMENTS OF TOM O'CONNELL, ASSISTANT SECRETARY, DEPARTMENT OF 
 DEFENSE, SPECIAL OPERATIONS AND LOW INTENSITY CONFLICT; REAR 
   ADMIRAL DAVID KUNKEL, U.S. PACIFIC COMMAND; AND BRIGADIER 
         GENERAL BENJAMIN MIXON, U.S. SOUTHERN COMMAND

    Mr. O'Connell. Chairman Souder, Representative Cummings, it 
is my pleasure to appear before you today to discuss the 
Department of Defense programs and policies that assist nations 
around the world in their battle against narcoterrorism. I have 
a longer statement to be placed in the record, but I would like 
to briefly touch on the Department's counternarcotics efforts 
at home and abroad.
    Chairman Souder and Representative Cummings, let me thank 
you for the excellent impressions of your opening remarks; both 
of you were right on the mark. And I would like to also thank 
you, Mr. Chairman, for allowing us to join together as one 
panel, and it is indeed a pleasure to serve with these two 
distinguished flag officers.
    Fighting narcotics is a complex process that requires 
coordination and funding from all levels of government 
agencies, local and State, law enforcement, and the foreign 
countries we assist. We are increasingly aware of linkages 
between terrorist organizations, narcotics trafficking, weapons 
smuggling, kidnapping rings, and other transnational networks. 
Terrorist groups such as the FARC in Colombia, al Qaeda in 
Afghanistan, and groups around the world can finance key 
operations with drug money.
    The Department of Defense, with our counterparts in the 
Department of State and other Government agencies, seeks to 
systematically dismantle drug trafficking networks both to halt 
the flow of drugs into the United States and bolster the 
broader war on terrorism. The Department has requested roughly 
$853 million for these efforts in fiscal year 2005. While this 
is lower than the total $908 million appropriated in fiscal 
year 2004, this is due primarily to the $73 million in funding 
added to this year's emergency supplemental to support our 
efforts in Afghanistan and in neighboring nations, and that is 
much appreciated. Our baseline fiscal year 2005 
counternarcotics budget request includes resources to continue 
and sustain these efforts.
    The Department is bolstering border security by providing 
communications systems for the border police, building police 
infrastructure in the border regions and improving information 
between law enforcement and military intelligence. Our 
activities are fully coordinated with, and in support of, the 
United Kingdom and the State Department. To support similar 
efforts in Colombia, the Department forwarded to the Congress a 
request for reprogramming $50 million during this fiscal year. 
I am pleased to report that the Department will maintain its 
emphasis on Colombia by increasing our efforts in Colombia in 
fiscal year 2005 by $43 million. This support will help 
President Uribe and his military execute Colombia's Plan 
Patriota as they extend a government presence in areas that 
have been isolated for decades. The Colombian military is now 
executing a well coordinated and joint military campaign 
against the FARC. As you know, to better assist the Colombians, 
we and the State Department have asked for congressional 
support in raising the current personnel cap in Colombia.
    In the Pacific Region, we are bolstering an already well 
established counternarcotics program in Southeast Asia, where 
our Asian partners face a challenging combination of terrorism, 
extremism, drug trafficking, and a serious need for increased 
maritime security.
    Our international counternarcotics support is predominantly 
in response to requests from our principal partners, the 
Department of State and the Drug Enforcement Administration. It 
includes deployments and programs to train and furnish 
intelligence and operational support for drug detection 
monitoring and provide equipment to partnering counterdrug 
forces.
    Domestically, the Department continues to work through the 
U.S. Northern Command and the National Guard with the 
Department of Homeland Security and law enforcement agencies to 
coordinate counternarcotics efforts in the United States. The 
National Guard is an exceptional partner to law enforcement in 
domestic counternarcotics missions, requiring militarily-unique 
skills, including air-ground recognizance, intelligence 
analysis, and training for law enforcement agencies. The 
Department is maintaining our National Guard support to law 
enforcement along the southwest border and adding linguist 
translation centers in California and Washington to capitalize 
on the language skills of our guardsmen in those areas.
    In terms of the Department's demand reduction efforts, it 
is our continuing view that illegal drug use is incompatible 
with a service member's sensitive and dangerous duties. The 
Department's demand reduction policy sets minimum testing rates 
at 100 percent, meaning each service member is tested at an 
average of once per year. Increased drug testing began in 
fiscal year 2005, with a goal of reaching 100 percent testing 
for all military and civilian personnel by fiscal year 2006. 
This cost-effective drug testing, along with punitive 
consequences for service members who are identified as drug 
users will continue to deter drug use amongst military 
personnel and help ensure the readiness of our armed forces.
    I would like to thank you, Chairman Souder, Representative 
Cummings and members of the committee, for the tremendous 
support you have provided to the Department. I look forward to 
answering your questions. And as an aside, I would just like to 
add my personal thanks and best wishes to John Stanton, who 
will be joining the Special Operations community. We salute his 
past service and wish him well as he goes in harm's way.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. O'Connell follows:]

    [GRAPHIC] [TIFF OMITTED] T6314.008
    
    [GRAPHIC] [TIFF OMITTED] T6314.009
    
    [GRAPHIC] [TIFF OMITTED] T6314.010
    
    [GRAPHIC] [TIFF OMITTED] T6314.011
    
    [GRAPHIC] [TIFF OMITTED] T6314.012
    
    [GRAPHIC] [TIFF OMITTED] T6314.013
    
    [GRAPHIC] [TIFF OMITTED] T6314.014
    
    [GRAPHIC] [TIFF OMITTED] T6314.015
    
    [GRAPHIC] [TIFF OMITTED] T6314.016
    
    [GRAPHIC] [TIFF OMITTED] T6314.017
    
    [GRAPHIC] [TIFF OMITTED] T6314.018
    
    [GRAPHIC] [TIFF OMITTED] T6314.019
    
    [GRAPHIC] [TIFF OMITTED] T6314.020
    
    [GRAPHIC] [TIFF OMITTED] T6314.021
    
    Mr. Souder. Thank you.
    Admiral Kunkel.
    Admiral Kunkel. Good morning, Mr. Chairman, Mr. Cummings, 
and distinguished members of the committee.
    I appreciate the opportunity to testify on the Joint 
Interagency Task Force West's counterdrug initiatives and the 
role we play in helping the U.S. Pacific Command, USPACOM, 
achieve enhanced security in the Asia-Pacific region.
    Joint Interagency Task Force West stood up in 1989 as a 
subordinate command to USPACOM serving as its executive agent 
in counterdrug programs. The command has a distinguished record 
of providing DOD unique resources to Federal law enforcement 
agencies in support of their efforts to detect and monitor drug 
shipments and providing actionable intelligence, enabling U.S. 
law enforcement to interdict those shipments. Specifically, the 
command has directly contributed to the seizure or disruption 
of over 240 metric tons of cocaine with an estimated value of 
$5 billion. During fiscal year 2003, a ASPIC/USSOUTHCOM 
agreement realigned responsibilities allowing JIATF West to 
relinquish its counterdrug efforts in the eastern Pacific to 
JIATF South in order to focus our resources entirely toward 
Asia.
    JIATF West provides support to various U.S. Country Teams 
in embassies throughout the Asia-Pacific region. This support 
includes unique analytical capability, as well as training and 
facility improvements which enhance the professionalism and 
capabilities of partner nation police and military units with a 
counterdrug mission. Our goal is to facilitate effective 
interagency cooperation and multilateral application of effort 
to reduce and contain drug trafficking.
    To further integrate JIATF West programs with other USPACOM 
components, Admiral Fargo directed the relocation of JIATF West 
to USPACOM headquarters during fiscal year 2004. This 
relocation is ongoing and the JIATF West command staff will be 
in place in June. We expect JIATF West to achieve full 
operational capability in Hawaii by December of this year.
    Let me conclude these remarks by saying we anticipate the 
activities of JIATF West will expand significantly over the 
next 5 years in conjunction with USPACOM's Theater Security 
Cooperation Plan and Regional Maritime Security Initiative, and 
these activities will complement Department of State programs 
in the region.
    Thank you for your support and the opportunity to testify 
before your committee.
    [The prepared statement of Admiral Kunkel follows:]

    [GRAPHIC] [TIFF OMITTED] T6314.022
    
    [GRAPHIC] [TIFF OMITTED] T6314.023
    
    [GRAPHIC] [TIFF OMITTED] T6314.024
    
    Mr. Souder. Thank you very much.
    General Mixon, Southern Command.
    General Mixon. Yes, sir. Thank you. If I may make an off-
the-cuff comment in reference to the effect of drugs on the 
United States per your comment. We at U.S. Southern Command 
view drugs and its movement into the United States as a weapon 
of mass destruction, and we treat it accordingly. And I think 
my comments will focus on that particular aspect.
    Mr. Chairman, Congressman Cummings, distinguished members 
of the committee, thank you for allowing me a few minutes to 
make some opening comments.
    We at U.S. Southern Command are fully committed to meeting 
DOD's responsibilities in the fight against drugs and 
narcoterrorists. We fulfill these responsibilities through 
detection and monitoring programs, close interagency 
coordination, and military support to partner nations. Our 
programs cover the entire SOUTHCOM area of responsibility, 
including Central and South America and the Caribbean Basin.
    Our principal agent in the planning and execution of the 
detection and monitoring effort leading to the end game, that 
being interdiction and apprehension, is the National Joint 
Interagency Task Force South, or JIATF South. JIATF South is a 
one-of-a-kind premier organization of excellence for 
multiservice, multination, and multiagency support to the 
counterdrug mission. Their operations in conjunction with 
USSOUTHCOM deliver an integrated approach to meeting DOD 
mission sets in the war against drugs and narcoterrorists.
    Colombia is the source zone of 90 percent of the cocaine 
and 70 percent of their heroin here in the United States, and 
much of our efforts are necessarily centered there. Still, we 
recognize the importance of the transient zones of Central 
America, the Pacific and the Caribbean, as well as the source 
zones in Bolivia and Peru as our other focus areas. Our efforts 
in Central America include daily interdiction efforts, where we 
have conducted 18 major surge counterdrug operations last year.
    We remain strong partners with our Caribbean friends. We 
have also deployed counterdrug training teams to Ecuador, 
Bolivia and Peru as the primary source countries assisting 
Colombia in their fight continues to be in the United States' 
best interest and a top priority for U.S. Southern Command. In 
close coordination with the U.S. Department of State, we 
continue to provide a full range of support to the Colombian 
Government, its security forces and its people. This includes 
training and equipping of both the military and police, 
assisting the Ministry of Defense with development of a modern 
budget and logistic organizations, assisting them in their 
narcoterrorist demobilization programs, and providing 
humanitarian assistance to populations most dramatically 
affected by this narcoterrorist war.
    Two of our most successful training and equipment programs 
remain the extensive support we have provided the Colombian 
Army's Counternarcotics Brigade and the Infrastructure Security 
Strategy Program, which has dramatically reduced the number of 
narcoterrorist attacks on Colombia's northern oil 
infrastructure. I would like to emphasize that all of our 
training and advising programs operate under strict rules of 
engagement that prohibits U.S. military personnel from actually 
participating in combat operations. In other words, they 
operate from a secure base.
    The continuation of expanded authorities is the single most 
important factor for us to continue building success in 
Colombia. This legislation has allowed us to use funds that 
were once only available for strictly defined counterdrug 
activities to provide assistance to the government of Colombia 
for a coordinated campaign against the narcoterrorist and its 
legal eagle armed groups who fuel the drug trade. The granting 
of expanded authority was an important recognition that no 
meaningful distinction can be made between the terrorists and 
drug traffickers in our region. All three of Colombia's 
terrorist groups are deep into the illicit narcotics business.
    Measures of effectiveness are very difficult to gage in the 
counterterrorist mission, but over the last several years we 
have seen some encouraging results. As you know, we recently 
restarted the Air-Bridge Denial Program in Colombia. Since the 
program restarted, there have been 14 aircrafts forced down, 11 
of those destroyed on the ground, and 7.9 metric tons of drugs 
seized.
    In Colombia, the primary source zone country, our support 
to the Colombian security forces has also resulted in good 
results. Using calendar year 2002 and 2003 data, which roughly 
corresponds to the inception of expanded authorities, the 
Colombian security forces have experienced dramatic successes 
in all fronts. A few examples: In 2003, the homicide rate has 
been the lowest since 1987, approximately 52 per 100,000 
capita; the capture of over a dozen mid-level members and one 
senior level member of the FARC leadership; restoration of the 
Government of Colombia's presence in all of Colombia's 1,098 
municipalities; and a 48 percent reduction in the terrorist 
attacks on Colombia's infrastructure. Most important, the 
people of Colombia feel free to move about their country under 
this new level of security.
    As these indicators demonstrate, we have been increasingly 
successful; however, we have been able to achieve these results 
with a decrease in both surface and air interdiction and 
detection assets due to the demands in prosecuting the global 
war on terror worldwide. We have continued to be increasingly 
successful due to a better information sharing, better 
information flow, and improved granularity of information 
coming from United States, European, Latin American law 
enforcement agencies. Also, our European allies have provided 
air and maritime assets to offset some of our shortfalls.
    In conclusion, we continue to press forward successfully in 
our fight against narcoterrorists in the drug trade. We are 
encouraged by Colombia's success and recognize that they are at 
a critical point in their history, which is central to our 
counternarcotics fight. Under the leadership of President 
Uribe, who enjoys a very high approval rating, approximately 75 
to 80 percent of the population, the military and police have 
regained areas long held by the narcoterrorists. They have also 
dealt serious blows to the leadership of these groups and have 
embarked on a strategic offensive to dismantle the FARC. Our 
commitment to support them at this juncture is critical. We 
will also continue our efforts in the rest of SOUTHCOM's AOR, 
understanding that despite our focus on Colombia, our other 
missions in the transient and remaining source companies will 
be key to success.
    I appreciate this opportunity to highlight the great 
counternarcotics work done by the men and women at U.S. 
Southern Command and all they are doing in the interest of 
regional and United States and national security. I look 
forward to answering your questions. Thank you.
    [The prepared statement of General Mixon follows:]

    [GRAPHIC] [TIFF OMITTED] T6314.025
    
    [GRAPHIC] [TIFF OMITTED] T6314.026
    
    [GRAPHIC] [TIFF OMITTED] T6314.027
    
    [GRAPHIC] [TIFF OMITTED] T6314.028
    
    [GRAPHIC] [TIFF OMITTED] T6314.029
    
    [GRAPHIC] [TIFF OMITTED] T6314.030
    
    [GRAPHIC] [TIFF OMITTED] T6314.031
    
    [GRAPHIC] [TIFF OMITTED] T6314.032
    
    [GRAPHIC] [TIFF OMITTED] T6314.033
    
    [GRAPHIC] [TIFF OMITTED] T6314.034
    
    [GRAPHIC] [TIFF OMITTED] T6314.035
    
    [GRAPHIC] [TIFF OMITTED] T6314.036
    
    [GRAPHIC] [TIFF OMITTED] T6314.037
    
    [GRAPHIC] [TIFF OMITTED] T6314.038
    
    [GRAPHIC] [TIFF OMITTED] T6314.039
    
    [GRAPHIC] [TIFF OMITTED] T6314.040
    
    [GRAPHIC] [TIFF OMITTED] T6314.041
    
    Mr. Souder. I want to thank each of you, and directly 
through you, to thank the men and women in our armed forces who 
are assisting us in these efforts. We very much appreciate the 
successes we have seen in Colombia. In fact, Colombia, in many 
ways, is a model for what we would hope would happen in Iraq; 
that as we move in the development of a stable nation and a 
democracy there, that our forces would, if anything, be 
supplemental, supporting local police and military forces that 
we supply our allies, rather than having to fight the battles 
for freedom. And in Colombia, unlike what we saw in Vietnam in 
many cases, or in Iraq right now, they are actually on the 
front lines fighting and dying because of our narcotics use, 
and it is our brave men and women providing the assistance and 
technical training to do that, and it is a model really of how 
it should work, and it is why we are at least seemingly turning 
the corner in Colombia.
    General Mixon. Sir, if I can make a comment on that. In my 
visits down there, and I average about once a month going to 
Colombia to work with their military, it is clear to me that 
their military and their civilian administration does not want 
the United States to pursue this fight. They appreciate the 
assistance, they need the assistance and the expertise that we 
bring to the battlefield, but they understand this is their 
fight to win, and they want to be the ones that win the fight, 
and not have U.S. forces doing the fighting for them.
    Mr. Souder. I am going to ask unanimous consent to insert 
into the record an unclassified statement from Major General 
John Sattler, U.S. Marine Corps, Director of Operations U.S. 
Central Command. Without objection, it is so ordered.
    [The prepared statement of General Sattler follows:]

    [GRAPHIC] [TIFF OMITTED] T6314.042
    
    [GRAPHIC] [TIFF OMITTED] T6314.043
    
    [GRAPHIC] [TIFF OMITTED] T6314.044
    
    [GRAPHIC] [TIFF OMITTED] T6314.045
    
    [GRAPHIC] [TIFF OMITTED] T6314.046
    
    Mr. Souder. We are disappointed that CENTCOM couldn't be 
here today, and I want to start this part of the questioning 
with some questions to Mr. O'Connell regarding Afghanistan.
    We recently held a hearing where we called in the 
Department of State because our understanding was that we are 
on the verge of the largest production of heroin that has ever 
come out of Afghanistan. If this occurs on our watch, and we 
understand that Britain has the primary responsibility for 
eradication, it would be a shame. One of the things that came 
forth at that hearing was a memo and guidelines. But first I 
want to know, from the best you can say, how many labs and 
warehouses with heroin have been destroyed in Afghanistan, and 
where and when have we been aggressively pursuing that?
    The eradication is under Britain, and that is what we 
covered in our last hearing. Much of this gets stockpiled and 
is in different places, and we at times know where it is, and 
the question is what are we doing about it.
    Mr. O'Connell. Thank you, Chairman Souder, for your 
question. It is not an easy one to answer with any great 
accuracy, but I can tell you that we have recently queried U.S. 
Central Command, and I do regret also that Central Command 
could not be represented. General Sattler could not be released 
from theater, and his deputy has a seriously ill father, but 
they had every intention to appear and have in fact appeared 
before.
    I have met with General Sattler and, in fact, received 
responses last night specifically to a listing of which labs 
have been hit, on what date, and what amounts have been 
confiscated to date. They go back into the early March 
timeframe, so that is all the information I have insight into. 
I will tell you that some of these lab attacks have been 
extremely successful. The problem I have is that they have 
classified their list of successes, and I would be happy to 
provide that to the committee in either a closed session or 
through the appropriate security procedures.
    But we do have a procedure that has now been placed in 
CENTCOM that has specific requirements for CENTCOM forces that 
requires them to do certain things during discovery of drugs 
during normal operations. As you know, we are not involved in 
the eradication. They have a policy now where the DEA will be 
notified, certain intelligence fusion centers will be alerted, 
drug caches over 10 kilograms will kick into action several 
activities by the intelligence fusion center there, the DEA and 
UK forces, and they are encouraged and have specific procedures 
to follow when encountering drugs and drug labs.
    And I think I need to leave it there, again due to the 
classification of the response from CENTCOM, but I would be 
happy to provide that to you, sir.
    Mr. Souder. I appreciate that. And we will look for such a 
closed session. Let me ask a brief question, because I want to 
do two followup questions with this.
    Do we classify in Colombia where we have blown up 
storehouses or warehouses, or is that information that is 
available in a public forum?
    Mr. O'Connell. Sir, there are certain portions of that 
information that we do in fact classify, simply to protect 
where those locations were and where future operations might be 
conducted. We do have unclassified versions of those briefings 
that we do present to folks that come through U.S. Southern 
Command that have an interest in drug interdiction, but to 
answer your question, we generally do classify those, at least 
initially.
    Mr. Souder. Even if the operation is complete?
    Mr. O'Connell. To my knowledge, that is correct.
    Mr. Souder. Because there is not one of us that doesn't 
understand the continuing operations problem. I have reserve 
forces front deployed in Afghanistan from my home district, a 
whole unit. I have just had more come back, people from my own 
church, who were based there and are commanders, and I have no 
desire to put anybody at risk. And I understand it is 
politically difficult, but this is a different type of battle 
than Colombia. At the same time, it is very hard for us to do 
oversight and to make arguments. We can see information, but 
some of this information would seem to be public. Yes, it is 
politically sensitive when you attack these different labs or 
destroy different areas, but so is it in Colombia politically 
sensitive, because when we go in and remove a lab area or move 
in, it creates farmers who are displaced, it creases people who 
are displaced, and causes political problems for governments 
that are supportive. And this is a fine balance and we are 
trying to respect that balance. At the same time, we are 
concerned and will look at the classified as to what our 
policies exactly are here, and if in the classified briefing we 
are not feeling that there is an aggressiveness with it, we 
will back in a public forum to try to figure out how to balance 
the continuing operations in what is perceived right now, at 
least in the pass, a lack of aggressiveness on these issues.
    Now, first off, we are very pleased to hear that there have 
been some, and that is why I say we will do this in a 
classified setting. But in your testimony, Mr. O'Connell, you 
stated that terrorist groups such as the Taliban and other 
extremist groups in Afghanistan support their operations with 
drug money. By operations, do you mean buying weapons to kill 
American soldiers? And how else would they be financed other 
than narcotics? It is not by bake sales. In other words, part 
of our argument is, look, obviously this heroin is part of the 
war. And you seem to agree with that in your statement.
    Mr. O'Connell. I do, Chairman Souder. The one thing I would 
like to indicate in terms of the Central Command data, you are 
exactly right, if a lab was destroyed, if drugs were seized, 
there is no reason that should be classified. The problem with 
this information is that in some cases the source or the tip 
for the actual operation is in fact included in the entire 
paragraph or the results. We could certainly extract that out, 
and we will go ahead and do that. As I mentioned, this 
information was received last night. It is classified in a way 
that we are not used to in that some paragraphs are classified 
appropriately, others seem to stamp the whole page, and we will 
get to the bottom of that and provide you with the data.
    Additionally, it will not be difficult to incorporate. In 
fact, CENTCOM has already incorporated a reporting requirement 
that will give you the type of data that General Mixon is able 
to in SOUTHCOM. So bear with us. I understand the requirement, 
and we will move toward that.
    Mr. Souder. And this is tough stuff, and nobody on this 
committee wants to endanger any sources, or put any of our 
troops at risk. What we want to make sure, and this is very 
difficult for the Department of Homeland Security and the 
military right now, is whether you have multiple missions, and 
as Ranking Member Cummings has said repeatedly, too, there is 
narcoterrorism and there are other forms of terrorism, and we 
have all these priorities as we have said in the statement, and 
we can't put so much of our focus on one that we neglect the 
other.
    Now, you were about to answer my question. When you say 
operations, you mean they are buying weapons. If they are 
supporting their continuing operations, they are buying their 
weapons and supporting their troops. Is that not true? And is 
it not integrated with the military battle?
    Mr. O'Connell. It is true, sir, and it is just a fact of 
life in Afghanistan. Afghanistan, as people have said before, 
was made by God for growing poppies. If you take any number of 
figures with respect to the economic statistics in Afghanistan, 
there are guesses or estimates anyplace between $4 and $14 
billion for the total GNP of the country. There are estimates 
concurrent with that that go to almost 60 percent of the actual 
cash that is flowing through the economy, legal or illegal, 
comes from poppy cultivation.
    So with that nexus and the Taliban certainly previously 
involved and certainly current involved, to some estimate, yes, 
you cannot escape the statement that you just made, that 
Taliban, al Qaeda and others derive some support from the 
narcotics trade. To the extent, as you and I have discussed, 
some of the intelligence estimates are just not as accurate as 
we would like them to be, but certainly I would concur with 
your statement.
    Mr. Souder. And if they would have their largest in record 
that would come out, because our problem in Afghanistan is not 
that dissimilar to Iraq; it hasn't exploded, but it is starting 
to.
    Let me say for the record, too, yes, it is true some of 
this information is coming through last night, but this hearing 
has been scheduled for months, and we delayed it at one point 
at the request of the Department of Defense and the military to 
try to accommodate the questions. Then we sent these questions 
in advance several weeks ago, only to be told yesterday that 
the responses were going to be classified. I understand that we 
don't want to have information get out to compromised sources, 
but it is not like we suddenly dropped this hearing in the last 
48 hours on the Department of Defense.
    It is also true that there are other things going on in 
that region, and we understand and appreciate that, but this is 
a primary narcotics subcommittee, and we are trying to make 
sure that this doesn't get lost. Having been on the ground in 
Afghanistan, I know that, for a fact, there was not as much 
focus as in my opinion there should have been on the heroin 
interconnection. Now we see in different parts where some of 
the warlords who are not necessarily the Taliban, but who have 
historically helped us to some degree, much like what we see in 
Iraq, where different subgroups are trying now to clink. They 
don't want democracy; they want to overthrow democracy.
    And in talking to President Karzi, one of his concerns and 
the reason he is now seeing this interconnection is initially 
we didn't want to be particularly disruptive of some of these 
zones where the poppy was growing because we thought, well, 
maybe these people will go along. Now we are finding out they 
won't disarm. They shot the interior minister and one of the 
cabinet ministers in Afghanistan. Where are they getting their 
weapons from? Some of these people aren't classified as 
Taliban, and by having a very tight definition here that says, 
well, how much is Taliban funded, it is also the thugs who 
don't want democracy there, and they are almost completely 
funded with the heroin.
    And while America is watching over in Iraq, we have a 
similar problem developing in the outer zones outside of Kabul 
in Afghanistan, that as they try to figure out how are we going 
to have a census, how are we going to get a count for people to 
vote, that if you can't get some semblance of order there and 
get these groups disarmed who are buying their stuff with 
heroin, we have to figure out how to get control of their 
sources of money, as the President has said, not just that. And 
I appreciate that the military is moving forward, but there is 
really no difference, in our opinion, between a stash of 
weapons and a stash of heroin, because they don't have the 
stash of weapons if they don't have the heroin.
    Mr. O'Connell. Chairman Souder, you are exactly right, and 
I take full responsibility for I guess the nonresponse on the 
CENTCOM questions. I will say that I could have come forward 
with the CENTCOM information I had 2 weeks ago when I testified 
before the Senate Armed Services Committee on the same 
question; however, this data is heartening to me because it is 
the first time that we have seen this degree of granularity 
into what is going on with respect to CENTCOM. And I think they 
are getting the message. We are doing this together, and soon 
they will be as good as Southern Command, I hope.
    Mr. Souder. One last thing. And I apologize that some of 
this information hasn't been shared with the committee, but 
some of this we have been getting even late last evening. We 
got this last night, this new counternarcotics directive. We 
will insert this into the record. I may have an additional 
question, but I would now like to yield to the distinguished 
ranking member. This is the unclassified version of the 
guidelines for the Department of Defense and CENTCOM on 
narcotics.
    Mr. O'Connell. Yes, sir. And the classified version is much 
more specific and I think you would find moves us in the right 
direction.
    Mr. Souder. Thank you very much.
    Mr. Cummings. Thank you all for being here. And, Admiral 
Kunkel, I just want to, first of all, thank you for 
acknowledging that these drugs, when they hit neighborhoods 
like mine, are indeed weapons of mass destruction. You couldn't 
have said anything more brilliant. In Baltimore, where I live, 
we have 300 murders a year, and I would guess that 90 percent 
of them have something to do with drugs. These are young black 
men, for the most part, usually under 20, dead. We have 50 
percent of our young men dropping out of school between the 9th 
and 12th grades. They then, many of them, go to selling drugs.
    I visit our shock trauma unit at the University of 
Maryland, which is located at downtown Baltimore, one of the 
best in the world, and there are literally 1,000 to 2,000 young 
people shot but lives spared only because they have shock 
trauma, and 95 percent of those had something to do with drugs. 
I see neighborhoods where property values plummet, where people 
can buy a house for $75,000 10 years ago, put $75,000 in it in 
renovations, and can't sell it for $50,000 5 years later 
because of drugs. And that doesn't even begin to deal with the 
families that are destroyed, the court costs, the cost for 
trying to repair lives. It just goes on and on and on. So I 
really do appreciate your saying that.
    I am just wondering, Admiral, what is the greatest 
challenge to the Joint Interagency Task Force West? What is 
your biggest challenge?
    Admiral Kunkel. Our biggest challenge at JIATF West?
    Mr. Cummings. Yes.
    Admiral Kunkel. Well, right now our challenge is our move, 
moving and focusing entirely in the Western Pacific and, of 
course, getting involved, totally engrossed in the initiatives 
out in the Western Pacific, Regional Maritime Security 
Initiative, and working with the Department of State on IAI, 
Illicit Activities Initiative, putting that together and then 
targeting the countries, specifically Cambodia, Indonesia, 
Malaysia, the Philippines, all of which have groups of 
terrorists involved with a drug connection.
    Mr. Cummings. General Mixon, I am sorry, I was directing my 
prior comments to you. I took my glasses off; I guess I need to 
put them back on. But my comments were to you. And again I 
thank you, General. General, have the expanded authorities 
granted to the U.S. forces in Colombia enhanced our 
effectiveness in fighting the drug trade in Colombia?
    General Mixon. Yes, sir, absolutely. And I take your 
initial comments to heart. The effects of drugs in this country 
poses a significant challenge, and I view it myself as a loss 
of treasure. These are young people that have potential, and we 
in the military have capabilities that can interdict and at 
least stop some of the drug flow coming into this Nation. So we 
view it at U.S. Southern Command as an appropriate and 
important Department of Defense mission that we pursue 
aggressively.
    To answer your question specifically, those expanded 
authorities pertain exactly to the comments that both you and 
the chairman made. There is a tight nexus between drugs, money, 
terrorists, and all that activity. So with the expanded 
authorities, it allowed us to go after those groups, the AUC, 
the ELN, and the FARC in Colombia specifically, by assisting 
the Colombian military to take the fight to them to take away 
their resources, that first being the ability to produce, move, 
and make money off of cocaine; but at the same time take away 
and destroy those forces that are protecting those individuals 
that are growing the coca. And we don't do this alone, we do it 
in conjunction with the Department of State, which has 
oversight over the eradication program in Colombia, and we have 
seen significant success in the eradication effort. So expanded 
authorities have in fact enabled us to be more effective 
against the narcoterrorists.
    Mr. Cummings. With regard to cooperation from the Colombian 
Government, how is that coming?
    General Mixon. My view is that the cooperation is very 
good. They cooperate closely with Department of State in their 
efforts. The counternarcotics brigades provide security and 
military operations in the vicinity of the spray operations. In 
addition to that, they are also intimately involved with their 
police in doing independent operations against the 
narcoterrorists and their drug production capabilities. Also, 
the Colombian Navy has been very, very active along the coast 
of Colombia in the transient zone, either with operations done 
with U.S. Coast Guard and U.S. Navy or unilateral operations in 
pursuing the drug traffic. They fully recognize that they have 
to take the FARC's and the other enemy forces' ability to fund 
themselves away in order to win this war against democracy in 
Colombia.
    Mr. Cummings. One of the things that has always concerned 
this subcommittee is the whole idea that drugs produce so much 
money. And we have seen it in Mexico and other places, where, 
because of that money, a lot of times the local law enforcement 
folk get involved in situations where they are being paid off 
by some of these major drug producers and, as a result, make it 
very difficult at times for our forces to be effective, and in 
many instances put their lives in danger because of information 
flowing to the wrong people.
    Have you seen any of that or much of that, or do you think 
that is something that does not happen too often now?
    General Mixon. There is no question that there are huge 
sums of money involved in this illicit business, and that 
certain individuals within the various enforcement agencies of 
these other countries could in fact be paid off, and I am sure 
have been paid off. I would be foolish not to believe that. But 
in my discussions with the DEA in Colombia specifically, they 
are very careful in how they plan and conduct the operations in 
conjunction with the police and who gets information. In other 
words, they protect the information. As a result of that, they 
have had better success over the last year to 18 months in the 
destruction of labs and the interdiction of these drugs.
    The narcoterrorists in this region are well financed and 
well funded. They have the latest in equipment, global 
positioning systems, satellite telephones, go-fast boats that 
can just about outrun any other boat on the commercial market, 
and when these boats make their way across the Pacific and the 
Caribbean, if they simply make it to the in-state, they simply 
destroy the boat and move the cocaine over. An organization 
that can do that has a lot of money, so they can buy influence 
and protection.
    But I think we are making progress in Colombia. We need to 
make better progress in Central America, and one way we can do 
that is by building those institutions of democracy within 
those nations to include the police force.
    Mr. Cummings. How is that coming, your last statement? Do 
you see strong police force, strong enforcement agencies?
    General Mixon. I do within Colombia for sure. I do not have 
as good a feel for the other nations of the specifics, but I 
believe they are making progress. And certainly it is the focus 
of every one of our agencies at work within those countries. 
Working with the police forces and so forth is sort of on the 
edge of what we do in the U.S. military, but my indications are 
that they are improving. A long way to go, though, for sure.
    Mr. Cummings. Do you find a similar situation, Admiral?
    Admiral Kunkel. Yes, sir. In fact, we have been working 
with the Thais for at least the last 5 years. At a very low 
level corruption is pervasive. And not only in Thailand, 
especially in the Philippines. Our activities in the 
Philippines, I would say of the lower levels we have to be very 
careful how we approach the law enforcement agencies. However, 
I would say this, and I seem to spend more and more time in the 
Philippines, Thailand, and Indonesia than I care to, but the 
higher levels, with the authorities they have, I am talking 
about the law enforcement, and especially the Philippine DEA, 
recently established, the people that I have met are very 
committed and dedicated to eradicating the drug problem, 
because they certainly see connection to the Abu Sayyaf, the 
terrorist organizations in their country, which affects their 
national security, which in turn concerns the United States, of 
course. So they are committed to working with us and receiving 
our training to fight the narcoterrorists.
    Our efforts, I believe, are paying benefits. We are hoping 
to establish Coast Guard-like authorities in these nations. 
Their ability to counter the threat, especially from the sea, 
is very limited. They have no common operating picture. They 
look to us for advice and training, and we are looking to 
assist them as necessary.
    I only mentioned two countries there, the Philippines and 
Thailand, but we are doing the same efforts in Cambodia and 
Indonesia, especially. However, those are long, long journeys, 
and it will take time. And we are just now beginning to get 
into the Philippines, which I see, and according to Admiral 
Fargo, anyway, we are looking for a 20-year plan. This is not 
an easy road.
    Mr. Cummings. I just have one more question, but, Mr. 
Chairman, I am just curious. I heard your comments to the 
Assistant Secretary. Do you plan to bring the Assistant 
Secretary back at some other time?
    Mr. Souder. What our intention is, is to work with some 
sort of a classified briefing to see what kind of information 
we get on the classified briefing. And then if that is 
sufficient, we won't have another hearing; but if need be, 
CENTCOM and the Assistant Secretary would come in for another 
hearing.
    Mr. Cummings. All right. Well, then I have just have one 
other question of the two military gentlemen.
    We in the Congress are always trying to figure out how we 
make sure that the taxpayers' dollars are spent effectively and 
efficiently, and that is one thing I think we all agree on. And 
at the same time, we try to figure out is there something that 
you need from us that would help you to be more effective and 
efficient in what you do. Do you feel like you are getting the 
support you need and the authority you need to accomplish what 
you are trying to accomplish? General?
    General Mixon. Yes, sir. There is, of course, nobody in the 
military or other places who would not like to have more 
resources. But having said that, we live in a real world and we 
have a global threat that we are dealing with. So I believe 
that the amount of funding that we have been provided, for U.S. 
Southern Command, for the mission is appropriate, and we are 
making good use of the taxpayers' money.
    We are working closely with DOD as they reposition assets 
that have been involved in the global war on terrorism in other 
regions, to provide those assets to us so that we can prosecute 
the end game more effectively against the narcoterrorists as 
they move drugs up both the Caribbean and the Pacific. That is 
an asset that DOD will work out with us.
    But we appreciate the money that has been provided to us, 
and we believe it is adequate. Most importantly, the expanded 
authorities that Congress has granted have been key in the 
successes that have been achieved. Those expanded authorities, 
along with the authority, when approved, to increase the cap to 
an additional 400, will put us in good shape, I think, to 
continue to pursue the war on drugs in Colombia.
    And I emphasized the word authority as it pertains to the 
cap. We certainly do not foresee immediately advancing the 
numbers of U.S. military in Colombia to the requested authority 
of 800. We went forward with a number of 400 so that in the 
eventuality we foresee additional support to the Colombians 
under the existing ROE, that we would have that flexibility and 
would not have to continue to come back to the Congress 
incrementally and ask for numbers.
    In the best of circumstances, if we were to supply the 
maximum amount of support to the Colombians, that expanded 
authority number would only go to 723, anyway. At the present 
time we are slightly below 300 U.S. military in the country. 
Expanded authority, the additional cap, adequate money, all of 
those things, we believe we have the resources available to do 
our mission.
    Mr. Cummings. Admiral.
    Admiral Kunkel. Thank you. That was a question I was not 
really anticipating, but in our focus coming out to the Western 
Pacific, we found that Admiral Fargo has looked to JIATF West 
because of what we bring to the fight; it is a joint work all 
services, interagency, of course, the law enforcement, and we 
are trying to put in place a model like that into these 
countries. So as we go into the countries, working with their 
law enforcement agencies, doing some mill-to-mill, but mainly 
law enforcement agency work, that we find that our business is 
expanding. And that would be in the future that we may be 
requesting further fiscal authorities.
    But when I talk about fiscal authorities, what I am really 
talking about here is you use counternarcoterrorism. As the 
money comes from Congress down to eventually JIATF West, we are 
looking for detection and monitoring of counterdrug flow, and 
how do you use that money to do your mission. And when you are 
looking to build intelligence fusion centers, for instance, in 
the Philippines and Indonesia, Thailand, you know, we are doing 
brick and mortar work. Some of our drug money is using brick 
and mortar work applied toward that. And when you talk about 
the payback to the United States, that measure of effectiveness 
is not as easy to put on the table as we did in the Eastern 
Pacific with cocaine flow.
    But our measure is just as important in fighting the global 
war. If we can combine those countries' intelligence centers, 
have them work together in these countries, and create a common 
operating picture so that we know where these drug boats are 
going and we have the ability to stop them, the partner nation 
or the United States can stop them and keep the drugs 
eventually from coming to the United States, that is what we 
are about. So we need to, I guess, clarify those lines of 
authority.
    Congress, of course, gives us the money and we look at it--
I should say some of us in Pacific Command look at it you can 
only spend it on drugs. Well, it is more than drugs. It is 
about counternarcoterrorism. It is not just drugs. And 
sometimes we look down that soda straw saying it is only drugs. 
Well, it is not. It is money laundering, as the general said. 
It is a weapons trafficking. Certainly it is drugs, and it 
feeds them all. We need those expanded authorities. That would 
say to JIATF West that would be the key.
    I wouldn't want to come back here and have to testify and 
say I spend my money on brick and mortar, and someone tell me 
what about drugs, and then try to explain that nexus, because 
it is certainly there.
    Mr. Cummings. All right. Thank you all very much.
    Mr. Souder. Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman. I appreciate your 
calling this hearing.
    Gentlemen, the stakes have been raised tremendously in your 
work. The stakes were already very high with the work you were 
doing, simply to keep narcotics from flowing into this country 
and flowing worldwide. Now with a focus on narcoterrorism, the 
stakes are higher than anyone could have anticipated just a few 
years ago. Now, we have terrorists who can get us both ways: 
they can get funds for their own operations and they can import 
poison into our country to debilitate mostly young people. You 
have really got us at both ends now; you are financing your own 
operations and you are debilitating the population through 
drugs. That must be a lovely set of conditions for them.
    Mr. Cummings spoke about the effects in his own community. 
The effects are nationwide. Kids in suburban affluent 
communities look like they are as much in love with drugs as 
desperate kids who are into drugs for money, and in the inner 
cities of the United States there is no economy. The 
grandfathers and the fathers of these young men that Mr. 
Cummings spoke about had manufacturing jobs. Well, particularly 
their cities are without jobs. Men without jobs will create 
their own economy, and the economy in many of our inner cities 
is a drug economy, a gun economy, and they are killing the 
inner cities of the United States. They have murdered the 
African-American family. The mandatory minimums that come out 
of the drug wars are largely responsible for the fact that 70 
percent of Black children are born to never-married women, and 
men without jobs, of course, do not raise families, they do not 
father children that they own. It is an absolute catastrophe in 
the inner cities of the African-American communities.
    It is difficult to know how much the Taliban and other 
terrorist forces are funded through the narcotics trade, I 
understand that. But we in this country, with our own efforts 
since September 11, and I want to commend the administration 
for the efforts it has taken to close off the usual bank and 
other monetary transfers. For example, in this city Riggs Bank, 
a very distinguished bank, now is on the carpet because of its 
relationship with Saudi Arabia, which of course it has had for 
decades. But finally there is a crackdown on just letting the 
Saudis do with money whatever they want to do, because we don't 
know where in the world that money gets.
    But as we close off the usual funnels for money, does this 
not make drugs perhaps the most commodity available for 
terrorists today, given the high demand for drugs, particularly 
in advanced societies? If you want to get money for terrorism, 
I am asking, isn't the best target the drug trade?
    Mr. O'Connell. Ms. Norton, was that question directed at 
me?
    Ms. Norton. I think all of you are qualified to answer the 
question.
    Mr. O'Connell. OK. Let me commend you on your statement. I 
don't know if you were here to listen to the opening statements 
of both the chairman and Representative Cummings, but yours was 
equally as excellent and as prescient about how critical this 
problem is to our Nation.
    You can talk about the tragedy that is taking place in the 
inner city and even in suburban locations. I had occasion, 
prior to taking this job, to do work in North Dakota and 
noticed the tremendous problems they are having there with 
crystal meth, a whole new difficulty that the country has not 
faced before. But there are faces and real people on the other 
end of this war, the brave men and women, as an example, in 
U.S. Southern Command, that are in the jungles in Colombia that 
have gone to extraordinary lengths to train the Colombian 
forces so that they can be effective against the traffickers 
and against the terrorists; the young Coast Guardsmen who are 
out in extremely dangerous conditions, my son included, to try 
to do the best they can and interdict this flow that comes to 
our shores. It is nearly an impossible task, and very 
frustrating.
    And for me as a public servant, to listen to you, and I 
understand, having lived in this area for a long time, the 
misery that the District and Baltimore and other places go 
through. It is a tremendous scourge on our society. I don't 
know the answer, I am not a social scientist, but my heart goes 
out to you. I feel proud that the Department, I think, is 
turning the corner and will make a much more concerted effort 
to look at how we can actually play as full team members, use 
our resources wisely, and get at this effort.
    Ms. Norton. I am on the Homeland Security Committee as 
well, and I appreciate very much the needle in the haystack 
problem that we have given to all of those who are involved in 
your work and your efforts, but what I am trying to get at is 
focus. The focus was, I think, legitimately on closing off the 
usual funnels of money. And I think we have begun to do that, 
and that is why I pointed to Riggs Bank. And I am wondering now 
whether the focus, if we are interested in funding alone. Let 
us just look at the question of funding of terrorism, shouldn't 
it be on narcotics.
    Mr. O'Connell. I think you are exactly right, ma'am, a 
large portion of it should be. Is our intelligence into those 
transactions as good as it should be? Probably not. On the 
Islamic side, I am sure you are aware of the HAWALAs, the 
secret transfer that takes place in certain parts of Islamic 
society, which makes it extremely difficult to track these 
essentially credit schemes that are done with a wink and a nod 
and really done by tradition. We are making some progress 
there.
    As you know, there are assets of the Department of Defense 
that have been directed to work this particular issue. 
Certainly NSA has been extremely successful. We have had good 
success working with the CIA's crime and narcotics centers. We 
work closely with DEA. So as we move forward, are certainly 
recognize, in fact the Secretary of Defense has specifically 
asked me to look at those things that we are currently doing, 
what can we do more effectively on that side; and we have given 
him answers back. We are participating. We have to be careful 
about the legal restrictions imposed on the Department of 
Defense. But you are exactly right, and I am pleased at the 
direction we are moving; I think it is the direction you are 
urging us to move, ma'am.
    Ms. Norton. I think we are going to be more and more 
dependent on the work you do. I don't see why terrorists should 
bother with anything but narcotics these days, given the 
demand.
    I have one more question, if I may, Mr. Chairman.
    I was very impressed when I was briefed by SOUTHCOM. I was 
on a congressional delegation to Guantanamo. We stopped in 
Miami and we were briefed by SOUTHCOM, and I was just 
astonished at the progress that has been made in Colombia. I 
remember how controversial Colombia was, and all kinds of 
concerns about what the military was doing in Colombia. And if 
ever there was a story of success, it seemed to come out of 
SOUTHCOM; the expanded authority, to be sure, the coordinated 
campaign. What was most impressive is somehow how the military 
is working with, and here is where leadership becomes 
important, with the leadership in the country and with the new 
institutions that apparently the country is building from the 
ground up, the new democratic institutions. So that you see a 
transformation in the country itself on the ground, which in 
turn leads to the defeat of the narcotics culture.
    This was so impressive. Whenever you see anything 
impressive like that has come out of a lot of controversy and 
yet proved itself as successful as our briefing indicated, one 
cannot help but ask how much of this is transferrable, for 
example, to Afghanistan, where you similarly have a country 
that needs to be rebuilt from the ground up in all of its 
democratic institutions. It took us some time to understand 
that is where you had to be, you had to be with the political 
institutions, you had to be with the local institutions on the 
ground. And now that we are there, and not simply treating this 
as a military matter, we are seeing, apparently, in Colombia, 
something that can only be called a success.
    Is this something we can expect perhaps to be transferred 
in other parts of Latin America, but not to Afghanistan? Is 
this capable of being replicated in Afghanistan, where we are 
now having such trouble?
    Mr. O'Connell. I would like to be able to tell you yes, we 
can take that wonderful work done by U.S. Southern Command, 
take those principles, and transfer them over there, but I am 
afraid that is not the case, ma'am. There are many, many 
differences, some you are certainly aware of that you learned 
when you were down in Colombia. And I echo your comments about 
the wonderful work done by Southern Command, by President 
Uribe, the Colombian military.
    But we face a different set of circumstances. Certainly, in 
terrain, the type of drugs grown, the nature of the central 
government, the nature of the surrounding countries and their 
particular interests, the almost total dependence on narcotics 
in terms of the economic flow in Afghanistan, some of the 
religious aspects all tend to argue against being able to 
transfer those things. But there are certain basic things, such 
as the work by U.S. Special Forces, the reconstruction teams in 
Afghanistan that have made a difference. I would like to say 
yes, but I am afraid in most cases it is not.
    The one common denominator is going to be our courage and 
our skill, and I think our military is up to the task. In the 
case of Afghanistan, we have a major ally that we are 
supporting in the case of the UK, who are the lead for 
counternarcotics in Afghanistan. We also work closely with the 
Germans as they train the police, with the Italians as they 
work on the court system, and other countries.
    So certainly a different model, but we will do our best. It 
is an excellent question, not easily understood as to why you 
just can't take success in one country and transfer it to 
another.
    Ms. Norton. I appreciate the thoughtfulness of your answer. 
The last thing we need, particularly as Americans, who perhaps 
are accused of this as a kind of cookie cutter approach, you 
know, what works here, let us take it to Iraq, let us take it 
worldwide. We can't even take our version of democracy 
worldwide. I would urge you all to look at what in fact is 
genuinely transferable, though. I certainly believe the whole 
notion of working with indigenous institutions and political 
institutions is important. We do have in Afghanistan the kind 
of leader that you have in Colombia, so at the top you are all 
right, it is just all that is in between.
    Thank you very much, Mr. Chairman.
    Mr. Souder. Thanks. And to reiterate that point, I think in 
President Karzi and his cabinet, what we don't have is a 200 
year democracy like we have in Colombia. What we have as 
commonality, however, is their narcotics ability to undermine 
that democracy. We don't have as much economic diversity as 
Colombia has. But Afghanistan has had periods in time where 
they haven't had narcotics dependency, and it is how to get 
them weaned, and not let them get hooked on heroin again, so to 
speak.
    I have a series of questions that are very important for 
this hearing to get into the record. I am not going to get 
through all these. We will have some written followup questions 
to build this, but let me approach a couple. I often say if you 
are not ADD when you become a Congressman, you are one after 
you are done. So even in this sphere I am going to be covering 
a number of types of questions, but they are things that we 
have been working on in this community and they are very 
important to the narcotics efforts.
    First let me sort through a little bit of the JIATF 
changes. As I understand, JIATF West moving to Hawaii from 
Alameda in northern California, that there has also been some 
changes in transfer of how the zone of the eastern Pacific will 
be handled. Could you explain that briefly?
    Admiral Kunkel. Yes, sir. It is pretty complicated even to 
explain, but----
    Mr. Souder. The bottom line is the area around Mexico and 
California are going to be still under JIATF West or will that 
be----
    Admiral Kunkel. No, sir. The bottom line is that in the 
past it was basically the eastern Pacific was divided along the 
92 longitude; anything east of 92 was JIATF South, anything to 
the west of 92 was JIATF West. And it was an agreement between 
USPACOM and USSOUTHCOM that that 92 line would basically 
disappear, and at that point JIATF South would have the entire 
vector coming from south to north into the United States ceded 
to them. And then, of course, NORTHCOM plays as far as their 
AOR and the unified command plan. So JIATF West is basically 
now focused entirely to the west; JIATF South has all of the 
cocaine flow coming from south.
    Mr. Souder. So we won't have the problem of a boat coming 
off Colombia and how the pass-off is going to come when they go 
out and get something in the eastern Pacific, whether they land 
in Mexico or California.
    How will it work west to east? Now if heroin is coming 
across, you have them in Hawaii. Where does the transshipment 
point pass-off occur going from JIATF West to JIATF South?
    Admiral Kunkel. It is now delineated basically 500 miles 
offshore, to put it bluntly, 500 miles offshore. So my common 
operating picture, once it is established, coming from 
Southeast Asia, I am aware of a boat or whatever. If I cannot 
have interdiction forces in place, detect and monitoring, if I 
can't get the interdiction forces in place, of course, we pass 
them off to JIATF South, and that should board JIATF North, if 
there is one, NORTHCOM, and it should be seamless.
    Mr. Souder. Now, my understanding is based on the success 
of what we have seen with JIATF South and West, is that JIATF 
North is looking at a similar system. Do you know where that 
stands or what is happening with NORTHCOM?
    Admiral Kunkel. It is not my lane of the road, so I don't 
know.
    Mr. Souder. Mr. O'Connell, do you know anything on that?
    Mr. O'Connell. Yes, sir. We are working with Assistant 
Secretary McHale, the Assistant Secretary for Homeland Defense 
in the Defense Department and General Eberhart as to exactly 
how that will work. I think part of that equation, sir, is the 
move of JIATF West, the integration of JTF Bravo and their 
efforts. Any changes in the unified command plan will certainly 
come into that, and that is currently under discussion. We will 
certainly, to the extent that we are intimately involved with 
JIATF South and JIATF West, will do everything we can to 
facilitate General Eberhart's decision, and Secretary McHale 
and Secretary Rumsfeld as to whether or not JIATF North is 
stood up, where it is, and what specifically its 
responsibilities are, because it will overlap with some of the 
Homeland Defense responsibilities of U.S. Northern Command.
    As you know, sir, the Defense Department is charged to use 
its C4I networks to conduct our monitoring and detection, and, 
again, that is out of my lane but in my area of familiarity, 
and we will do everything we can do make sure that effort by 
Northern Command and by the Department is as seamless as it can 
possibly be.
    Mr. Souder. Admiral Kunkel mentioned Indonesia, 
Philippines, Malaysia, and Thailand in particular. If it comes 
north, through Korea or Japan or Russia, and up over the top to 
Alaska or toward Seattle, who will be watching? Is that what 
NORTHCOM would stand up? Are you currently watching that zone 
if it is transiting through the ocean or by air over the top of 
the ocean?
    Admiral Kunkel. Mr. Chairman, in fiscal year 2003 we were 
directed by DASDE to establish a technical analysis team in 
Japan, which JIATF West has stood up, along with the DIA, to 
start focusing our collection efforts toward North Korea, and 
working with the Japanese, especially the Japanese Coast Guard. 
We are there now, we are starting those efforts, but I must say 
we are really taking baby steps at this point. We are aware of 
that vector going north, and to pass it off to law enforcement 
agencies, especially the DEA in the United States, or Customs, 
those two agencies in particular, and then eventually, of 
course, to NORTHCOM. So JIATF West has it to the west, and as 
it approaches we pass that off.
    Mr. Souder. My philosophy, and pretty much the philosophy 
of those who have been involved in the narcotics efforts for 
some time, which includes Speaker Hastert and others who have 
been focused on this, such as Congressman Kolbe Foreign 
Operations Appropriations Subcommittee, get it where we can 
eradicate, which is predominantly State Department backed up 
with resources from SOUTHCOM and the training. If you can't get 
it there, as it starts to move through, get it before it hits 
our shores. You know, it gets wider and wider, and the 
intelligence is absolutely critical in this process. Also, just 
like in Homeland Security Committee, as we work, as you harden 
one target, they move to a more vulnerable entry point, as I 
mentioned about Detroit.
    Also, it isn't necessarily true that it is always going to 
be cocaine or heroin, or this HIBC stuff that is coming in. Now 
we are seeing the crystal meth particularly in the rural areas, 
but seeing the first signs of it hitting our urban areas, which 
could become like a crack epidemic, just like that. We held a 
hearing in Orlando, FL on OxyContin, and oxycodone, which 
showed we actually have more deaths from overuse of 
prescription drugs than we do from cocaine and heroin. We are 
trying to concentrate on that because these big shipments 
coming in from people who are overproducing it, it is going to 
be just like variations of tracking cocaine and heroin, but a 
different type of challenge.
    Just like as if you are fighting war, it is clear that men 
and women in the armed forces will crush anybody who stands up 
to fight them right now, so the enemy is not fighting 
regularly. Well, the drug guys are doing similar type of 
things. Now, part of that, a critical part, is intelligence. 
And I wanted to ask a couple questions about these TARS and the 
aerostats. So if I could ask Mr. O'Connell first, because the 
JIATFs don't work if we don't get the intelligence.
    The Tethered Aerostat Radar System is an example of the 
detection system now run by Department of Defense. The system 
was originally authorized in 1986 Omnibus Drug Act and was 
envisioned for 14 unit picket line on the southern approaches. 
Unfortunately, it was only implemented to a maximum of 12 and 
has now been withered down to 7, leaving key southern 
approaches unprotected. In fact, the Defense Department 
suggested it only benefits from a single balloon located in the 
Florida Keys.
    Why has TARS capability slipped to half of the 
congressional authorization, and what has been done with the 
appropriated funds for the other half?
    Mr. O'Connell. Once again, I wish I can give you a snap, 
precise answer, Mr. Chairman. As you cited, the program was 
originally scheduled for, I believe, 14 sites. I think 12 were 
eventually done; the systems were up and the maintenance and 
connectivity were there. I believe it was determined that only 
8 sites would cover the desired area. That included, I believe, 
the site in Puerto Rico as well.
    Right now there was a cut last year that Congress directed 
I think of $6 million to the Tethered Aerostat Program. I will 
be brutally honest and tell you that we are in the middle of I 
don't want to say a spat in the Defense Department, but an 
honest disagreement between U.S. Northern Command, who has one 
sense of how the tethered aerostats ought to be used and my 
department and the JIATF South into who should operate those, 
maintain, and fund those, where do those funding lines go. 
Should it better go to Department of Homeland Defense? I don't 
know. I have my opinion, the Department perhaps has a different 
opinion. But we hope to have a resolution shortly so that we 
are not sending an internal Defense spat up to the Hill.
    So that is about the best I can give you on that, sir.
    Mr. Souder. Well, let me say that I appreciate the openness 
and honesty on that answer, because that is not easy for a 
person in your position to say that. But if it is about to come 
here, we need to be prepared, and my guess is is that as we 
improve a porous border on the southwest, which we have no 
choice of doing if we are really going to have a Department of 
Homeland Security. It is not that our men and women aren't 
working hard there, but the fact is if a million illegal 
immigrants can get through a year, probably some terrorists 
can, too. As we try to improve that border and the holes in 
that border in southwest Arizona, some of the other sections of 
Texas and other places, it becomes apparent that it isn't going 
to be able to be controlled just by land border system or a 
high flying system, in that the low-flying planes and other 
ways of getting in are critical.
    Also, we have, in my opinion, without getting too specific, 
from the land border, if you take the water border looping over 
to Florida, some questions in there that are very difficult for 
us to get answers to as far as what is coming in. And if we 
don't have this aerostat system, we need other questions of 
what is happening as we track the people, or have a tip coming 
out of Colombia, or out of Mexico. We need to be able to see 
them before it hits my hometown.
    Mr. O'Connell. Sir, I am going to impose on my colleague 
the Admiral here in a moment, but there are lots of issues 
here. We have other capabilities which are the relocatable over 
the horizon radar, which look farther out. As you know, the 
aerostats generally look out to approximately 250 miles. If 
they are at 10,000 feet, they are looking down. So that is one 
segment of the airspace you certainly want to cover. There are 
other alternatives in the segment you just talked about. There 
are always tradeoffs in terms of expense, reliability.
    And I would ask the Admiral, since he is not only a skilled 
aviator, but has worked these issues before, if he would have 
any comment on that particular segment that you described 
geographically.
    Admiral Kunkel. Thank you, sir.
    I will revert to my Coast Guard, put my Coast Guard hat on, 
away from the JIATF director. When I flew out-bat missions 
several years ago, we need that picture, to have that common 
picture. If you have a radar picture out there, in order to get 
the interdiction assets to the right spot, it is a needle in a 
haystack. You know, we have Coast Guard ships and aircraft out 
there now, and if you don't have an overhead either aircraft 
platform or have an aerostat or something to give you that 
picture, it is a needle in the haystack. And I have done that 
too many times to where you go out on patrol and you find 
nothing. I have also done it very effectively given the proper 
resources like an aerostat or an overhead E3 or P3.
    Mr. Souder. Continuing along this line, we had a big 
discussion about what to do after we lost Panama, and then 
compounded by moving out of Roosevelt Roads Air Station in 
Puerto Rico. The F16 Coronet Nighthawk was supposed to be part 
of the justification for moving into Curacao in the Netherlands 
Antilles and Aruba. Apparently it isn't anymore, and it is 
unclear to us what is being done on Curacao in an 
interdepartmental narcotics base, because many of the things 
being based there aren't being used necessarily for 
surveillance at this point.
    Mr. O'Connell, General Mixon, whoever would like to comment 
on this, I would like to hear what type of aircraft you have 
there, what do you see replacing the Nighthawk; do we have 
adequate resources right now, given the changes that are 
occurring, and a little bit of that evolution.
    General Mixon. I am not intimately familiar with the 
Nighthawk capability other than to say that I have been told 
that it was not as effective as they thought it would be, and 
so it was not actually present when I assumed my 
responsibilities last summer as the J3 U.S. Southern Command. 
But having said that, we have other assets from all agencies, 
DOD, BICE, and also foreign militaries that work out of those 
what used to be called FOLs, now CSLs, Coordinated Security 
Locations.
    We fly approximately 400 sorties of all types out of those 
three locations and about 1,500 on-station hours. Results from 
flying from those locations, about 56 metric tons of cocaine 
and about 3 metric tons of marijuana either seized or 
disrupted. So those locations meant Curacao and Cumpala have 
been key to the replacement of that capability out of Howard 
Air Force Base in Panama.
    From the standpoint of assets, I mentioned earlier that 
what we are looking for now is a reinvigoration of the assets 
from DOD, P3s, and we expect potentially AWACS to be available 
this summer, after they have recouped from the global war on 
terrorism, that will enhance our interdiction effort. Once we 
put all of the assets together, both an aerial platform for 
interdiction and a surface ship that has rotary wing aircraft 
on it, and we tie those together, we call that MPA, our chances 
of interdiction goes up to about 70 percent.
    So the answer to your question specifically, good use out 
of the CSLs, large numbers of sorties coming out of there, and 
we believe even more effective use of those once DOD assets are 
returned to the full drug end game effort.
    Mr. Souder. So in banking on the return of those assets 
from the war on terrorism, do we have additional assets coming 
in to replace the diverted assets over on the war on terrorism, 
or are you banking that things are calming down in Afghanistan 
and Iraq?
    General Mixon. I didn't mean to imply that things were 
calming down in those two theaters of operation, because they 
are out of my area, obviously, but we have seen the return of 
the AWACS aircraft, they have been refitted over the last year 
and we do expect the return of that asset this summer. The 
other assets pertain, the P3 in particular, to the overall life 
of the aircraft, and the Department of Defense has come up with 
a plan for the use of those aircraft.
    Fortunately, during the interim we have received excellent 
support from BICE and also from other nations participating in 
the interdiction effort, and we have been able to at least 
sustain a good interdiction program, but we believe it will be 
much better once we see these assets returned. And we also have 
good commitment from both U.S. agencies involved in drug 
interdiction and other governments that are involved in that to 
sustain the effort in our area of responsibility.
    Mr. Souder. Well, we will continue to follow this up as we 
have the various meetings, as we visit SOUTHCOM and so on, but 
I want to put on the record with this hearing, because it may 
be a while until we get into that again, this committee 
historically, under the past administration as well as this 
administration, has expressed its concern about diversion of 
assets. We understand that there are very critical problems 
around the world that you have to deal with, but this comes 
back to why it is so important to have Mr. O'Connell, in his 
position, to be an advocate inside the Department of Defense to 
say remember narcotics is part of the mission too. As Ms. 
Norton said, we don't see this going down, and particularly in 
the type of narcotics funding terrorism. This idea that we are 
going to have traditional war fronts, rather than rogue nations 
or terrorist groups that don't have national boundaries. It is 
a different type of warfare. If we don't cutoff their funding 
and their places that you can't do that if you don't get at the 
narcotics.
    We can't constantly have narcotics be number 21 in mission 
and have the intelligence resources pulled away and then think 
that we are going to catch the people. At some point Congress 
has to say, and you have to help take the lead and say look, we 
don't have enough resources to do your missions. And that part 
of the focus of this hearing is to call attention to those 
resource requirements. I have severe doubts that resources are 
sufficient, even if there is no diversion on domestic soil that 
needs an AWACS. Assuming that there is no outbreak in North 
Korea or Indonesia that needs an AWACS, assuming things go 
reasonably well in Iraq and Afghanistan that we don't need an 
AWACS, that we will get something back this summer. And the 
question is at some point we can't always be the junior partner 
in this. AWACS were diverted in the last administration for an 
oil spill in Alaska, they were diverted for Bosnia.
    This isn't new under the Bush administration. It is a 
problem of saying look, maybe we don't have enough of these 
things to help get a dedicated AWACS to the narcotics effort 
because we have all this money being spent on JIATF, East, 
West, now maybe North, but if you don't have the data, what in 
the world are we doing? What if you have gaps in the data and 
you are trying to follow somebody?
    Now, I know everybody is working hard to fill the gaps, but 
now let me ask another question, along similar lines, but a 
different type of question. Has anybody requested more oilers? 
Part of the problem is that if these guys float in the water 
and out-wait us? I can't even think of the magnitude of the 
problem in the Pacific, let alone the Caribbean. One question 
is if we can see them? If we are following, do we have our data 
to feed into JIATF? OK, now let us say we have the data sources 
to see them. Do we have enough resources on the water and in 
the air to do that? And one key element of it is refueling with 
adequate oilers, both in the East Pacific and in the Caribbean.
    General Mixon.
    General Mixon. Yes, sir. If I may go back just a moment to 
the question you made in your earlier comment. Certainly, Mr. 
O'Connell is our strongest advocate in DOD. Since his arrival 
there, we have been open and frank in our discussions with him, 
and he has gone forward numerous times to support our mission. 
And I am confident in telling you today that if in fact we see 
a depletion of assets to be a threat to our mission, I am 
convinced that General Hill will bring it to the attention, to 
include your own. So I am confident in that.
    Mr. Souder. Because we are spending over $1 billion right 
now in the Andean Region. And if we are spending all that money 
down in Colombia and it gets out because we didn't put the in-
between in, we are wasting a fair share of that.
    General Mixon. Yes, sir.
    Mr. O'Connell. Mr. Chairman, if I could sort of take the 
heat off General Mixon. We are keenly aware in the Department 
of the strain on resources, particularly ISR resources. You 
asked particularly about what we used to call the forward 
operating location at Curacao. And we have closed Roosevelt 
Roads. That creates a singular problem in how we used to 
address the whole surveillance issue in the Caribbean Basin. We 
have a capability there of 12 aircraft, various mixes, 2 large, 
4 medium, 6 small, that all perform counternarcotics missions, 
either detection monitoring, intelligence surveillance, and 
recognizance. But this can include a mix of P3s, EP3s. We have 
Air Force E3s, the AWACS that you just described, KC135 
tankers, EC130's, Coast Guard HC130's, Immigration Customs 
small jets, C12s, and other antisubmarine patrol aircraft. In 
addition, we are certainly relying on assets from some of our 
allied nations: U.K., the Dutch, in some cases the French.
    It is a difficult mix. I have specifically addressed this 
with the J3 of the Joint Staff, Lieutenant General Schwartz. He 
has carefully looked at our requirements for this summer 
against what we think will be needed in other theaters. 
Additionally, the Deputy J3 of the Joint Staff accompanied me 
to JIATF South, where we met with General Hill, Commandant of 
the Coast Guard, and looked specifically at how we can maximize 
our intelligence, surveillance, and recognizance capabilities 
as a government, as a team, particularly for the summer season.
    I am not convinced that we have the maximum solution 
possible, but I am convinced that with the current constraints 
we are under, we are doing the best we can. And that is my best 
call on that one, sir.
    Mr. Souder. Thank you.
    General Mixon.
    General Mixon. Yes, sir. Getting to the specific question 
about the refueling operations you asked in your second 
comment, the Navy has supplied refueling ships, they have been 
made available because there are refueling operations and long 
legs that the drug traffickers will use. In addition to that, 
the United Kingdom has apportioned one of its top-of-the-line 
oilers for the refueling effort, and also we are doing work and 
have agreements with the Peruvian Navy to also provide oiler 
capabilities. So we try to get a balance. And I think what is 
important about this is not only the U.S. effort, but also the 
effort of the other nations involved in drug interdiction so 
that they carry a portion of the burden.
    So I hope that answers the question on refueling operations 
that you asked a moment ago.
    Mr. Souder. Let me raise two more things. We held a hearing 
in Arizona, and staff has been down that section of Arizona 
from Tucson west, probably all the way over to Yuma, maybe even 
El Centro, is one of our more vulnerable segments in the United 
States because it is so desert: not as many traditional roads, 
hard to patrol. But the Barry Goldwater Range covers 
approximately the western third of the land border of Arizona 
and Mexico. The Range also claims significant land north of the 
border. This Range is used for air-to-air and air-to-ground 
testing. As the U.S. Border Patrol has become more effective 
preventing and intercepting illegal immigration in the buildup 
areas, more and more human and contraband smuggling has 
migrated to the austere areas such as the Goldwater Range.
    Apparently the DOD agents for the range, the U.S. Air Force 
and the U.S. Marine Corps, have refused to allow Federal law 
enforcement agencies access to air and land along the border. 
As a result, we haven't been able to control the illegal 
immigrants and drugs entering that area as effectively as 
others. We held a hearing in Arizona, as I mentioned. Some of 
the DHS witnesses testified at the magnitude of the smuggling 
problem and how critical access to the border area is. They 
also informed me about a phenomenal number of people who die in 
this area from exposure.
    I understand briefly from our discussion, Mr. O'Connell, 
that there has been some negotiation and movement, but up until 
now the Luke Air Force Base and the Pentagon refuse to 
promulgate a memorandum of understanding between DOD and DHS 
for law enforcement access to the Range in the immediate area 
of the border, for example, allowing a fly zone for the planes 
that we move along the border, which, by the way, our fighter 
jets aren't supposed to be down in that section anyway. Are you 
prepared to take responsibility at the Department of Defense if 
you don't allow us to go after the flow across the border? In 
other words, is it going to be farther into the Range before 
there is some sort of a way to do the intercept?
    Mr. O'Connell. I thank you for your question, sir. I was 
alerted last night by members of my staff that this was an 
issue, and in terms of the research that I have been able to 
do, we did check with Northern Command, we checked with JTF6, 
the operational alliance in El Paso, we checked with the Border 
Patrol office in Yuma, and we asked to speak to both Air Force 
and Marine Corps representatives and asked specifically has 
there been any refusal to allow Federal law enforcement on the 
Range, or are there any specific restrictions. With the 
exception of a minor safety belt that I am not specifically 
familiar with in terms of the depth, the people in Yuma say 
that there is now not a problem, that there is cooperation.
    I certainly am sensitive how you, as a representative, 
would be very upset if this were the case. I can only tell you 
that my limited investigation has indicated that if there was a 
problem, it is solved. And if that is not the case, I will 
personally get back to you. But that is the best information 
that I have at this time.
    Mr. Souder. Part of the problem in that area is there 
aren't roads, so there is a minimal way to get there, even in 
the area where Organ Pipe National Monument is, where we had 
the ranger killed and where they had to shut down the third 
best hiking trail in that whole region because so many drug 
runners are going through the park. That area is comparatively 
developed, compared to over where we practice bombing, as it 
should be. The problem is, as we seal these areas, we are not 
only going to have the drug smugglers moving over to where 
there is no resistance, they are going to be walking in the 
middle of the bombing range, and all of a sudden we are going 
to have public hearings about whether we are, in our testing, 
hitting illegal immigrants, who will be portrayed in the most 
sympathetic ways, not as narcotraffickers. And one way to do 
this is to have, like the rest of the border, a fly zone where 
we can put the ICE planes to be able to track that, because I 
know the military wants a flexibility maximum, but this is an 
international border. They can't come up that close to the 
border, anyway, without risking international law violations.
    Obviously, we don't want to have our own planes colliding. 
We don't want to have our drug enforcement and immigration 
people running around and restricting our ability in one of the 
premier places with which to train our military personnel. But 
you can't have a border with gaps in it. We are having similar 
problems with the National Park Service, with the Fish and 
Wildlife Service in parts of this, because if we harden one 
target, they are going to move to the softer target. And if you 
will look at this and continue to work so that we can make it a 
continued thing. I know there have been discussions, but we 
have to get some kind of resolution. I know the Arizona 
delegation is really nervous about this issue.
    Mr. O'Connell. Yes, sir. If you would allow me to take that 
as a question, I promise Mr. Newbury of my staff will be back 
to you and your staff on what specifically we know, what things 
we can do. I share your concern, and we have it for action.
    Mr. Souder. And I want to thank all of you. We will 
probably have some additional written questions, and, as you 
know, we have an interactive relationship, and try to both get 
staff and members to each of your JIATFs and SOUTHCOM because 
you are so critical.
    One thing I want to add for Mr. O'Connell is one of our 
concerns, and you can hear the frustration here. It is a kind 
of a battle that has to be continued, especially with all the 
challenges that you have, that in the White House National Drug 
Control Strategy it mentioned DOD twice on counternarcotics, on 
page 31 and 51. Yet you have one-twelfth of the 
counternarcotics budget and you have 174 percent of the budget 
in counternarcotics that ONDCP has to do the national ad 
campaign, to do all the HIDTAs, to do all that side of the 
stuff. You are a major player in counternarcotics, and we need 
that acknowledgment out of the Department of Defense and out of 
the White House of how major a player it is.
    And I have one question I didn't get asked that we 
definitely will put forth, but it has so many parts to it. I(n 
my area I don't have an active base, but I have tons of Guard 
and Reserve, and National Guard has been doing lots of missions 
in drug support and other types of things, and as we 
increasingly use our Guard and Reserve like they are regular 
military--I mean, I have one Guard unit deployed in Iraq, 750 
people for 15 months. I have a Reserve unit going over right 
now to Afghanistan that hasn't been deployed since Leyte Gulf, 
and they are going to be gone for over a year. Most of these 
people had other jobs, they were doing partial support of other 
things, and part of the thing is how is that impacting the 
narcotics area. I don't think these things are fully thought 
through as a national strategy, that, oh, this is how we were 
using them over here because we see this crisis over here, and 
we just need to make sure that narcotics is at the table. JTF6 
in El Paso has historically done a military training mission, 
and it is a great way for Guard-Reserve units to be trained all 
over the country, but while they are training, they are doing 
narcotics missions and border missions, so it's a twofer: we 
are training and fighting narcotics. And to make sure that that 
stays in the mix. We are banking on you in your position.
    Also, if you can help us with the Secretary of Defense 
Office and Legislative Affairs to make it a priority that we 
can work with CENTCOM here on the narcotics efforts. It is a 
major concern of this committee, myself and the ranking member 
and the other members of this committee, that the heroin boost 
out of Afghanistan does not come on our watch, and that, 
second, we don't believe that we can stabilize Afghanistan 
unless we are aggressively understanding that the heroin is 
interrelated with the subgroups in Afghanistan. And it is not 
just the Taliban, it is any group that wants to challenge the 
authority of a democratic institution, including crooks on the 
street, regional thugs, anybody that is interrelated.
    We look forward to getting the classified briefings. But 
the one thing you are hearing about the 9/11 Commission, which 
I voted against and do not support, at the same time, what the 
American people are hearing is that we don't preplan enough. In 
Afghanistan, we can see this coming. It is absolutely happening 
on the ground. The focus right now is on Iraq, but they are 
farther along in some ways in democracy in Afghanistan, but it, 
in many ways, is an even tougher country than Iraq. They don't 
have oil, they have narcotics. Heroin is their oil. And that 
whole region of this country, we were depending on the good 
faith of regional sublords to dominate, and they aren't 
cooperating all of a sudden, they are fighting Karzai. You have 
religious and ethnic divisions in Afghanistan that are just as 
tough, if not tougher, than we have in Iraq, and all of a 
sudden, if the attention turns back over there and they say to 
us in Congress, where were you? How did these people get these 
guns? How did these people get this set up? How come we have 
these armed insurgents here who are attacking and killing our 
men and women from back home, and we say, well, they get their 
money from heroin. Well, what were you doing when they produced 
the crop? What were you doing when you had them in their 
warehouses and you didn't hit them? That has to be made clear 
to our military.
    I believe there has been tremendous progress. In the last 
stretch here we need to accelerate that process. I know that 
the State Department is focused, DEA is on the ground now. It 
isn't just a military question. You can't do it all, the Brits 
need to be focused more on it, and we put a little pressure on 
them as well. And we will continue to work with you, but we are 
really banking on you to help us with some of that too inside 
the Department of Defense.
    Mr. O'Connell. I feel the responsibility, believe me.
    Mr. Souder. I thank you all for coming, and thank you for 
your leadership. We very much appreciate it. The job of an 
oversight hearing is to try to identify some of the gaps, but 
we are really trying to help you make sure you have adequate 
resources in the areas of your responsibility and will continue 
to do so.
    With that, the subcommittee stands adjourned.
    [Whereupon, the subcommittee was adjourned, to reconvene at 
the call of the Chair.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T6314.047

[GRAPHIC] [TIFF OMITTED] T6314.048

[GRAPHIC] [TIFF OMITTED] T6314.049

[GRAPHIC] [TIFF OMITTED] T6314.050

[GRAPHIC] [TIFF OMITTED] T6314.051

[GRAPHIC] [TIFF OMITTED] T6314.052

[GRAPHIC] [TIFF OMITTED] T6314.053

[GRAPHIC] [TIFF OMITTED] T6314.054

[GRAPHIC] [TIFF OMITTED] T6314.055

[GRAPHIC] [TIFF OMITTED] T6314.056

[GRAPHIC] [TIFF OMITTED] T6314.057

[GRAPHIC] [TIFF OMITTED] T6314.058

[GRAPHIC] [TIFF OMITTED] T6314.059

[GRAPHIC] [TIFF OMITTED] T6314.060

[GRAPHIC] [TIFF OMITTED] T6314.061

[GRAPHIC] [TIFF OMITTED] T6314.062

[GRAPHIC] [TIFF OMITTED] T6314.063

[GRAPHIC] [TIFF OMITTED] T6314.064

[GRAPHIC] [TIFF OMITTED] T6314.065

[GRAPHIC] [TIFF OMITTED] T6314.066

[GRAPHIC] [TIFF OMITTED] T6314.067

[GRAPHIC] [TIFF OMITTED] T6314.068

[GRAPHIC] [TIFF OMITTED] T6314.069

[GRAPHIC] [TIFF OMITTED] T6314.070

[GRAPHIC] [TIFF OMITTED] T6314.071

[GRAPHIC] [TIFF OMITTED] T6314.072

[GRAPHIC] [TIFF OMITTED] T6314.073

[GRAPHIC] [TIFF OMITTED] T6314.074

[GRAPHIC] [TIFF OMITTED] T6314.075

[GRAPHIC] [TIFF OMITTED] T6314.076

[GRAPHIC] [TIFF OMITTED] T6314.077

[GRAPHIC] [TIFF OMITTED] T6314.078

[GRAPHIC] [TIFF OMITTED] T6314.079

[GRAPHIC] [TIFF OMITTED] T6314.080

[GRAPHIC] [TIFF OMITTED] T6314.081

[GRAPHIC] [TIFF OMITTED] T6314.082

[GRAPHIC] [TIFF OMITTED] T6314.083

[GRAPHIC] [TIFF OMITTED] T6314.084

[GRAPHIC] [TIFF OMITTED] T6314.085

[GRAPHIC] [TIFF OMITTED] T6314.086

[GRAPHIC] [TIFF OMITTED] T6314.087

[GRAPHIC] [TIFF OMITTED] T6314.088

[GRAPHIC] [TIFF OMITTED] T6314.089

[GRAPHIC] [TIFF OMITTED] T6314.090

[GRAPHIC] [TIFF OMITTED] T6314.091

[GRAPHIC] [TIFF OMITTED] T6314.092

[GRAPHIC] [TIFF OMITTED] T6314.093

[GRAPHIC] [TIFF OMITTED] T6314.094

[GRAPHIC] [TIFF OMITTED] T6314.095

[GRAPHIC] [TIFF OMITTED] T6314.096

[GRAPHIC] [TIFF OMITTED] T6314.097

[GRAPHIC] [TIFF OMITTED] T6314.098

[GRAPHIC] [TIFF OMITTED] T6314.099

[GRAPHIC] [TIFF OMITTED] T6314.100

[GRAPHIC] [TIFF OMITTED] T6314.101

[GRAPHIC] [TIFF OMITTED] T6314.102

[GRAPHIC] [TIFF OMITTED] T6314.103

                                 <all>

</pre></body></html>
